NOT RECOMMENDED FOR PUBLICATION
No. 20-5481
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ANDREW INDELICATO PETERSON,
Petitioner-Appellant,
v.

S. BUTLER, Warden,
Respondent-Appellee.

FILED

Dec 17, 2020
DEBORAH S. HUNT, Clerk

)
)
)

)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
KENTUCKY

)
)

ORDER
Before: GUY, KETHLEDGE, and NALBANDIAN, Circuit Judges.
Andrew Indelicato Peterson, a pro se federal prisoner at the Federal Correctional
Institution—Manchester, in Manchester, Kentucky, appeals the district court’s judgment denying
his 28 U.S.C. § 2241 petition for a writ of habeas corpus. This case has been referred to a panel
of the court that, upon examination, unanimously agrees that oral argument is not needed. See
Fed. R. App. P. 34(a).
In 2016, Peterson pleaded guilty to being a felon in possession of ammunition in violation
of 18 U.S.C. § 922(g)(1), and the United States District Court for the District of Minnesota
sentenced him to 120 months of imprisonment. The Eighth Circuit Court of Appeals affirmed his
sentence. United States v. Peterson, 869 F.3d 620, 621 (8th Cir. 2017). And Peterson filed an
unsuccessful motion to vacate under 28 U.S.C. § 2255. See United States v. Peterson, No. 15-CR0106(2) (PJS/FLN), 2018 WL 1936008 (D. Minn. Apr. 24, 2018).
In 2020, Peterson filed a § 2241 petition in the Eastern District of Kentucky, his district of
confinement, see Rumsfeld v. Padilla, 542 U.S. 426, 443 (2004), asserting that his § 922(g) felon-

No. 20-5481
-2-

in-possession conviction is invalid under Rehaif v. United States, 139 S. Ct. 2191 (2019). Rehaif
held that § 922(g) requires the government to prove “that the defendant knew he possessed
[ammunition] and also that he knew he had the relevant status when he possessed it.” Id. at 2194.
Peterson also asserted‘that the ammunition that he was charged with illegally possessing was
destroyed in a fire at the police station’s evidence room, which prevented the government from
establishing—and him from challenging—§ 922(g)(l)’s jurisdictional element that the
ammunition traveled in interstate commerce. The district court denied Peterson’s petition as “an
impermissible collateral attack oft his underlying conviction.” The court also denied Peterson’s
motion to amend or correct that decision. Peterson now appeals.
We review de novo a district court’s judgment denying a § 2241 petition. Wooten v.
Cauley, 677 F.3d 303, 306 (6th Cir. 2012). “A federal prisoner must challenge the legality of his
detention' by motion under 28 U.S.C. § 2255, but may challenge the manner or execution of his
sentence under 28 U.S.C. § 2241.” Id. “Still, pursuant to the ‘savings clause’ in § 2255[(e)], a
federal prisoner may bring a claim challenging his conviction or imposition of sentence under
§ 2241, if it appears that the remedy afforded under § 2255 is ‘inadequate or ineffective to test the
legality of his detention.’” Charles v. Chandler, 180 P.3d 753, 756 (6th Cir. 1999) (per curiam)
(quoting § 2255(e)). And we have explained that the § 2255 remedy is “inadequate or ineffective”
where a petitioner who claims actual innocence shows “that he had no prior reasonable opportunity
to bring his argument for relief.” Wright v. Spaulding, 939 F.3d 695, 705 (6th Cir. 2019); see also
Hill v. Masters, 836 F.3d 591, 595 (6th Cir. 2016). To do so, the petitioner must identify “a
Supreme Court decision that adopts a new interpretation of a statute after the completion of the
[petitioner’s] initial § 2255 proceedings.” Hueso v. Barnhart, 948 F.3d 324, 333 (6th Cir. 2020).
And the petitioner must “allege and prove” actual innocence by showing that the new case “applies
to the merits of the petition to make it more likely than not that no reasonable juror would have
convicted him,” Wooten, 677 F.3d at 307-08.
The district court assumed that § 2255 is inadequate or ineffective to test Peterson’s Rehaif
claim, but the court denied his petition because he did ftot show that he is actually innocent of his

No. 20-5481
-3-

§ 922(g) conviction. Section 922(g)(1) prohibits the possession of ammunition by a felon, that is,
anyone “who has been convicted in any court of, a crime punishable by imprisonment for a term
exceeding one year.” The district court noted that, before his guilty plea to the § 922(g) charge,
Peterson had been convicted of three felonies in Minnesota. “This extensive and undisputed
criminal history,” the district court held, “completely undercuts the implication that Peterson,
somehow did not know that he was a felon at the time he possessed the ammunition in question.”
Thus, the district court held that Peterson could not show that it was more likely than not that no
reasonable juror would have convicted him of being a felon in possession of ammunition under
Rehaif
Peterson moved to amend or correct the district court’s decision. He first argued that the
district court erred in not resolving his § 922 jurisdictional arguments, but the district court held
that those arguments were not cognizable under § 2241. Peterson also asserted that the district
court’s description of his criminal history was incorrect. He claimed that one of his three prior
convictions involved acts that took place after he committed the § 922(g) offense here and thus
that it could not establish that he knew then that he was a felon at the time. But the district court
noted that the record still showed that he had pleaded guilty to two other felonies—receiving.stolen^ ,
property and aggravated robbery—years before he possessed the ammunition.
Peterson argues that he is actually innocent of his § 922(g) conviction following Rehaif
because he did not know when he possessed ammunition that he was a felon. He first asserts that
his receiving-stolen-property conviction was a misdemeanor. But his presentence report shows
that it was a felony. He also claims that, although his aggravated-robbery conviction is a felony,
he did not know that because his sentence was stayed with an order to serve one year in a
workhouse facility and he was discharged in eight months. Yet Peterson’s presentence report
3*5
shows that the stay was revoked and that he was ordered to serve his original 48-month prison
b

term. Given this history, Peterson did not establish his actual innocence after Rehaif. See, e.g.,
United States v. Ward, 957 F.3d 691, 695 (6th Cir. 2020). Peterson also argues that the district
court shifted the burden on the knowledge-of-status element from Rehaif. But in a § 2241 petition,

r,

J

No. 20-5481
-4-

“[i]t is the petitioner’s burden to establish that his remedy under § 2255 is inadequate or
ineffective,” Charles, 180 F.3d at 756, by showing, among other things, that he is actually
innocent.
Finally, Peterson argues that the district court erred by not reviewing his jurisdictional
claims about the destruction of evidence. Yet the district court determined that those claims were
not cognizable under § 2241. Because those claims do not rely on a new interpretation of a statute,
and because Peterson could have brought them in his § 2255 motion, see Wright, 939 F.3d at 705,
the district court did not err in rejecting his jurisdictional claims as non-cognizable.
In sum, assuming that Peterson had no prior reasonable opportunity to raise his Rehaif
claim, he has not established that it is more likely than not that no reasonable juror would have
convicted him of being a felon in possession of ammunition in violation of § 922(g)(1).
Accordingly, we AFFIRM the district court’s judgment.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

•

/
/

/■

_ .Mb. 20-5481
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
Feb 18, 2021
DEBORAH S. HUNT, Clerk

ANDREW INDELICATO PETERSON,

)
)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
S. BUTLER, WARDEN,
Respondent-Appellee.

ORDER

BEFORE: GUY, KETHLEDGE, and NALBANDIAN, Circuit Judges.
The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

